Chris Jaye
PO Box 5015
Clinton, NJ 08809
caj @okvnews. com
Date: February 14, 2020
Chris Ann Jaye
Plaintiff

The Supreme Court of the United States
Docket____ (still waiting)

v.
Oak Knoll Village Condominium
Owners
Association, et. al.
Defendants

Word Count Certification

Clerk Harris (Defendant in the Matter of US District Court of Northern Iowa, 19-cv-121):
I, Chris Ann Jaye, certify that the word count for my petition is 1479. This includes all words from
Brief Factual Background through my signature.
I declare (or certify, verify, or state) under penalty of peijury that the foregoing is true and correct.
Executed on February 14, 2020.
Although a lawyer swearing under pain of penalty and peijury means nothing in any federal court to
other lawyers (as evidenced by the illegal rulings of those with benefits via this legal mafia), I am
certifying according to the federal statues (28 USC 1746) as required. Again, the federal statutes mean
nothing to government lawyers (and judges), but for us deplorables... it is an absolute must. So here
you go. Get your kicks with acting like the law means something in a court of law...
And before you find another excuse to reject it, note word count (per the rules) is under 1500 words.
So R. 34 (2) applies.

Chris Ann Jaye/
Petitioner (Plaintiff)
Pro se
cc: Senator Joni Ernst (Senate Judiciary Committee)
cc: Filed with Northern District of Iowa

1

